No.

IN THE

SUPREME COURT OF THE UNITED STATES

FILED
MAR 1 8 2021

JUNE M. DOMINO, Ph.D.-PETITIONER

SUPREEMEFCTOnRTLn^K

.-RESPONDENT(S)
ON PETITION FOR WRIT OF CERTIORARI TO
UNITED STATES COURT OF APPEALS FOR THE NINTH CIRCUIT
PETITION FOR WRIT OF CERTIORARI

JUNE M. DOMINO, Ph.D.

POST OFFICE BOX 1262

MADERA, CALIFORNIA 93639

(310) 591-6145

RECEIVED
MAR 2 3 2021
1

OFFICE OF THE CLERK
SUPREME COURT II g

QUESTION(S) PRESENTED
1) Seven (7) government agencies failed in applying Title VII
mandates as outlined in our United States Constitution; Was
this a coordinated effort by government employees to
undermine the Rule of Law for the purpose of attacking and/or
diminishing our Democracy.
2) Did the United States Federal Court for the Eastern District
violate Plaintiff/Petitioner’s Constitutional Due Process
rights by assigning and unassigning this Pro-Se litigant’s
case, in a deliberate effort to suppress evidence resulting in
irreparable harm to this aggrieving Plaintiff?

3) Did AFSCME Employee Union as co-defendants in this case,
violate Plaintiffs Constitutional rights of equal protection
under law by a) failing to represent this Employee Steward
with a licensed attorney, and b) remaining complicit for the
purpose of maintaining their government contract with said
Defendants?
4) Did the California Personnel Board breech Title VII
requirements by ruling that an Employment Contract begins
prior to an employee and employer ever demonstrates a
meeting of the minds? Were their actions an attack on the rule
of law, both in substance and in fact, that violates the basic
tenants of Contract law?
5) Did Federal EEOC Analysts fail to issue a Subpoena to
Defendants, to discover if the Employer engaged in
Retaliation against this Plaintiff/Petitioner when the
Employer received a Cease-and-Desist Order?
6) Did the United States Court of Appeals for the Ninth Circuit
fail to provide this Plaintiff/Petitioner with equal protections
under law, by sanctioning the lower court’s ruling against this

2

QUESTION(S) PRESENTED Cont.
7) Pro-Se Litigant without applying due diligence and absent the
investigation of genuine evidence?

8) Did Defendants, a government employer, engage in a
“pattern”
of
racial
discrimination
against
this
Plaintiff/Petitioner for the purpose of preventing this African
American Psychologist from becoming licensed in the State of
California?

3

LIST OF PARTIES

[N/A] All parties appear in the caption of the case on the cover page.
[X]

All parties do not appear in the caption of the case on the cover
page, A list of all parties to the proceeding in the court whose
judgment is the subject of petition is as follows:
AFSCME LOCAL 2620
2550 N. Hollywood Way
Suite #209
Burbank, CA. 91505
CALIFORNIA STATE PERSONNEL BOARD
801 Capitol Mall
MS #22
Sacramento, CA. 95814

RELATED CASES
https://www.sacbee.com/latest-news/article219809640.html This news
brief informs the Court of the Culture operating within CDCR. It is
most relevant to this case because it provides historical evidence that
identify government administrators who attack the rule of law daily.

Ralph Coleman, et al., v. Gavin Newsom, et al. Docket No. 90-CV-520
United States District Court Eastern District of California. This case
serves as “evidence” of a history of Racial Discrimination within
California Correctional Health Care Services, for which an actual
Consent Decree is currently operative. It informs the Court of a
“pattern” of Title VII violations against both minority staff as well as
inmates.

4

TABLE CONTENTS
OPINIONS BELOW
8

JURISDICTION

9

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

10
11-14

STATEMENT OF THE CASE

15-19

REASONS FOR GRANTING THE WRIT

20

CONCLUSION
INDEX TO APPENDICES
APPENDIX A

CASE NO.: l:19-cv-01790
JUNE M. DOMINO PH. D., PLAINTIFF IN PRO- SE
MOTION TO SET ASIDE COURT INSTRUCTION
ENTERED: 12/02/2020

APPENDIX B

CASE NO-20-16328
UNITED STATES COURT OF APPEALS FOR THE NINTH
CIRCUIT DISMISSAL
ENTERED: 10/20/2020

APPENDIX C

CASE NO.: l:19-cv-01790-SKO
FIRST SCREENING ORDER RE: PLAINTIFF’S JUNE M.
DOMINO, IN PRO SE ORIGINAL COMPLAINT. SIGNED BY:
MAGISTRATE JUDGE SHEILA K. OBERTO.
ENTERED: 03/03/2020

APPENDIX D

CASE NO.: 1:19-CV-01790-NONE-SKO
COURT ORDER UNASSIGNING EASTERN
DISTRICT JUDGE SIGNED BY CHIEF JUDGE KIMBERLY J.
MUELLER/NORTHERN DISTRICT.
ENTERED: 02/03/2020
5

INDEX TO APENDICES CONT • • •

APPENDIX E

CASE NO.: l:19-cv-01790
JUNE M. DOMINO, Ph. D. - PLAINFTIFF IN PRO SE
v. CALIFORNIA CORRECTIONAL HEALTH CARE SERVICES,
et al.
[ORIGINAL COMPLAINT]

APPENDIX F

CASE NO.: 181948
CALIFORNIA CORRECTIONAL HEALTH CARE SERVICES,
RESPONDENT’S REQUEST FOR OFFICIAL NOTICE IN
SUPPORT OF CLOSING BRIEF.
PROOF OF SERVICE DATED 6-13-2019

APPENDIX G

U.S. DISTRICT COURT FOR THE EASTERN DISTRICT OF
CALIFORNIA CIVIL DOCKET FOR CASE #: l:19-cv-01790-NONESKO As of: 02/05/2021

6

TABLE AUTHORITIES CITED

CASES
Conley v. Gibson, 355 U.S. 41 at 48 (1957)
Davis v. Wechler, 263 U.S. 22; Stromberb v. California, 283 U.S. 359; NAACP
v. Alabama, 375 U.S. 449
Elmore v. McCammon (1986) 640 F. Supp.905
Haines v. Kerner, 404 U.S. 519 (1972)
Jenkins v. McKeithen, 395 U.S. 411, 421 (1959); Picking v. Pennsylvania R.
Co., 151 Fed 2nd 240; Pucket v. Fox, 456 2nd 233
Picking v. Pennsylvania Railway, 151 F.2d. 240, Third Circuit Court of
Appeals

STATUTES AND RULES
ABUSE OF AUTHORITY
DISCOVERY SUBPOENAS REQUIRED

OTHER

7

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW
[X ] For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix B,
to the petition and is
[NA] reported at__________________________________________ ;
or, [[NA] has been designated for publication but is not yet
reported; or, [X ] is unpublished.
The opinion of the United States district court appears at Appendix D to the
petition and is
[N/A]
---------------------------------------------------------------reported at; or, [ ] has been designated for publication but is not
yet reported; or, [X ] is unpublished.
[N/A ] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix______to the petition and is
[ ] reported at
5 or, [
] has been designated for publication but is not yet reported; or, [
] is unpublished.
The opinion of the State of California Personnel Board appears at Appendix,
F, to the petition and
; or, [
[ ] reported at
[X] has been designated for publication but is not yet reported; or,
[ X] is unpublished.

8

JURISDICTION
[ X] For cases from federal courts:
The date on which the United States Court of Appeals decided my case was
October 19. 2020
[X ] No petition for rehearing was timely filed in my case,
[N/A] A timely petition for rehearing was denied by the United States Court of
and a copy of the
Appeals on the following date:_____________
order denying rehearing appears at Appendix[N/A] An extension of time to file the petition for a of certiorari was granted to
(date) in
and including_____
.(date) on
Application No. —A
The jurisdiction of this Court is invoked under 28 U. S. C. 1254(1). In the
instant case currently pending before all Courts the Plaintiff moved the Court
for the purpose of resolving a Federal Question derived from Title VII statutes,
United States Constitutional Amendments, and Equal Protection Under Law.

[N/A ] For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix---------[ ] A timely petition for rehearing was thereafter denied on the following date:
________________________ , and a copy of the order denying rehearing
appears at Appendix.
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including(date) on
(date) in
Application No. —A
The jurisdiction of this Court is invoked under 28 U. S. C. 1257(a).

9

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

Title VII of the Civil Rights Act of 1964 prohibits employment discrimination based on
Race, color, religion, sex and most recently age discrimination.
14th Amendment explains that all persons born or naturalized in the United States...
are citizens of the United States and of the state wherein they reside. No state shall
make or enforce any law which shall abridge the privileges or immunities of citizens of
the United States; nor shall any state deprive any person of life, liberty or property,
without due process of law; nor deny to any person within its jurisdiction the equal
protection of the laws.

10

STATEMENT OF THE CASE
This case is an examination of an attack on the Rule of Law which has emerged
from within various government agencies physically located in the Central Valley of
California. I regret to inform you that the citizens of the United States have been
attacked from within. The purpose of said attack was, and remains a genuine threat to
our Democracy. A review of the evidence demonstrates that the rule of law was
desecrated by specific employees who seek to advance their personal politics for the
purpose of destroying our Democracy. If they are successful in annihilating the rule of
law, then the United States Democracy will fail. California has historically been
considered as forerunners in establishing legal jurisprudence throughout this country.
This appears to be the reason political pundits against our Democracy have begun to
lay the groundwork in this part of the country. This case must be heard by the United
States Supreme Court for the purpose of protecting our Democracy. Evidence will show
that the rule of law is the main frontier for the dismantling of Democracy throughout
the world. This case shall identify how the United States is exposed, where our
vulnerabilities lie, and how to safeguard our legal system. As an educated woman, I
dare not approach your Bench without “evidence”. This case has been delayed since
2019 in an effort to hide the evidence. I come before you today, urging you to simply
examine the e-mails, the tape recordings, witnesses who rely on Subpoena, all for the
purpose of protecting the land I love and was born in, The United States of America.

11

STATEMENT OF THE CASE CONT...
In April 2015 I approached California Correctional Healthcare Services for a
position as Staff Psychologist. Upon submitting my resume and going through an
extensive credentialing process, they offered me a job, three hundred miles away from
my home, as a Staff Psychologist, in Chowchilla at their Women Prison. I so longed to
work in my field of specialization, I packed my bags and stayed in a hotel. I was
informed that relocation compensation was unavailable. My first day of work I was
assigned to a supervisor who had a master’s degree. Surely the Chief of Mental Health
would adjust this situation. I walked in the door with a Ph.D., all intern hours
completed, and four years to obtain a license, with a firth year taken under advisement
should there be extenuating circumstances. After one month on the job the racism
emerged. Determined to serve a population of women who were at there lowest ebb in
life, I took a deep breath and did my job. During the first year they did everything to
make me quit. When they saw I was determined, by the Second year they began their
set-up tactics which were later exposed. Finally, by the Third year they became
desperate, they issued a Non-Punitive Termination using a manufactured Rule of Law.
Defendants insist that my employment contract with CCWF did not begin on October
1, 2015, my first day of work; but rather my employment contract began in 2009 when
I was accumulating student intern hours required by law for the purpose of acquiring
a Ph.D. in Clinical Psychology. This was a racist and desperate attempt to interrupt
my ability to become licensed in my field. The fact of the matter is they did not want
me to help those inmates who were attempting to rebuild their lives. The State would
12

STATEMENT OF THE CASE CONT • • •

make far more money if they were in prison than if they were with their families.
Unfortunately, they did not realize that because of the culture we now live in, there is
no shortage of offenders.
Nevertheless, Defendants terminated me in three years, publicly admitting that
they made a mistake interpreting the law. That in fact my time had elapsed before
they hired me. To which I reply, if you make a rule that applies to some Psychologist
but not all Psychologist, the rule is unenforceable. In the end, the rule itself is
rendered null and void.
Most importantly, this was an attack on the rule of law. In fact, Defendants
were so proud of their victory that they petitioned the Court for a precedent. Now the
hidden agenda emerges! A forensic psychologist would ask, who were these people? I
did not know them. They were not from my Department. What message were they
trying to send? Here we find a group of administrators who seek to attack the rule of
law. They do not want to create a bill to be placed on the ballot. They seek to force all
of society to see things their way. They seek to become both the Judge and the Jury.
They present themselves as anti-government. They resist both Democrats and
Republican policies. They do not believe in Courts, they do not believe in Science, they
do not believe in Democracy. In all fairness to them I ask, what proof do we have of
their position? Listen to the evidence. Hear what they say on public CD’s. Look at the
written evidence. Hear from the witnesses who are afraid to speak-up unless they
13

STATEMENT OF THE CASE CONT

receive a written Subpoena for fear that their careers would also be ruin. Examine the
e-mails then come to your own conclusion. Only then will you understand what my
personal experience has shown me. Don’t take my word for it, allow me to show you
the evidence.

14

REASONS FOR GRANTING THE PETITION
The Court should grant Certiorari of this case because daily we are discovering
systemic attacks on the Rule of Law. Without the rule of law our Democracy cannot
exist. If we are to remain a Democracy in the United States of America it is imperative
that we identify attacks from within. This is an urgent, fluid dilemma that affects all
unsuspecting Americans. This case informs the United States Supreme Court, in real
time, of specific vulnerabilities to our Constitution that require additional safeguards.
The United States Supreme Court must stand with our Founding Fathers to declare
that our Democracy is not for Sale.
A review of the “evidence” demonstrates that at no time has this Plaintiff ever
petitioned the lower court for a Notice of Interlocutory Motion nor Appeal. A review of
all writings created and filed by this Plaintiff/Petitioner, has never contained the words
Notice of Interlocutory Appeal. Notwithstanding entries made to the Court’s Docket by
the United States District Court for the Eastern District, a careful review of actual
documents indicates that the Clerk of the Court inaccurately characterized Plaintiffs
Motion as such. Plaintiff has never moved the lower court for any such motion. Hence,
we find that the Eastern District’s ruling was at best, misleading. However, due
diligence was required to cure this defect. Moreover, should any such Motion be
considered as valid, the Court itself would step into the shoes of this aggrieved Plaintiff
and would become the “moving party” in this case.” Such an action by the Court would
be a clear departure from the accepted and usual course of Judicial proceedings and

15

REASONS FOR GRANTING THE PETITION CONT • • •
Therefore, qualifies as a violation of due process of law. It is precisely for this reason
that Petitioner now calls for an exercise of the Supreme Court’s authority to hear this
case.
Secondly, Plaintiff is a Litigant in Pro Se who filed her original Complaint using
the Eastern District Court’s forms. On December 27, 2019, the case was assigned to
Magistrate Judge Sheila K. Oberto. On February 3, 2020 and without providing legal
Notice, Judge Dale A. Drozd, who has never been assigned to this case, petitioned the
Northern District Court for an Order to unassign Plaintiffs Case. Although said Order
was dated for February 2,2020 long after Plaintiffs case had been assigned, the Eastern
District Court applied Judge Mueller’s Order “retroactively” for the purpose of
preventing Plaintiff from being heard and heard in a timely manner. Interestingly
enough, Judge Mueller’s Order stated that Plaintiffs case was “unassigned until a new
district judge could be appointed”.
The Court shall take notice that one of the main reasons Magistrate Judges are
assigned to various cases that arrive throughout our judicial system, is to address the
lack of Federal Judges required to meet the current influx of pleadings that come before
the court. The fact that Judge Mueller’s Order contained the words “this action is hereby
unassigned until a new district judge is appointed” serves as an unnecessary delay of
Plaintiffs right to be heard before the bench. Thus, the combination of assigning and
unassigning this case, coupled with denying Plaintiff access to the Court,
16

REASONS FOR GRANTING THE PETITION CONT...
notwithstanding the jurisdictional delay set in motion by the Northern District’s
involvement in the Eastern District’s case, serves as clear and convincing evidence of
violations of this Plaintiffs/Petitioner’s constitutional rights. The fact that the United
States Court of Appeals for the Ninth Circuit ruled on a case that was never set-inmotion by the Plaintiff and was inaccurately characterized by the lower court is nothing
less than an infringement upon the rule of law and an egregious erosion of Plaintiffs
Constitutional Right to present evidence before the Court.
It is also significant to note that contained within the lower Court’s pre-printed
forms on Page 5, Section 3, Line 1, we find these words, “Do not make legal arguments”.
Despite the fact that Plaintiff clearly followed the instructions contained in the Eastern
District Court’s filing packet, the Eastern District’s admonishment of this Plaintiff made
it abundantly clear that the Court had no intention of allowing the facts of this case to
come before the bench. Upon a careful review of the District Court’s Docket, it is
reasonable to conclude that no matter what this Pro Se litigant would set in motion,
ultimately the Eastern District Court would delay and deny Plaintiffs quest for justice.
Furthermore, the Appellate Court would sanction all Eastern District Court’s decision.
Here we find the mechanisms of Systemic Racism currently operating against African
Americans sparsely located in the Central Valley of California.
From the onset of this case, we see evidence of the Eastern District Court’s
intention to eliminate Plaintiffs right to present her case before the bench, along with
17

REASONS FOR GRANTING THE PETITION CONT...
an illegal filibuster designed to protect Defendants and to create economic poverty in
the Plaintiffs life.
Although Defendants originally created this problem a careful review of the file
demonstrates that a perpetual amount of assistance contributed to fueling this attack
on our Democracy by distorting the rule of law. More specifically, a review of the
evidence supports a historical pattern of Institutional Racism throughout the Central
Valley California dating as far back as 1908 with the destruction of an African American
township known as Allensworth. Clearly this problem is bigger than any one person.
The fact of the matter is that anytime our rule of law is prostituted, intentionally
misinterpreted, withheld, or used to accomplish an illegal act; the effects of such actions
reverberate throughout all of society and serves as an open wound to our Democracy.
Embedded in our modern-day culture are government employees who are afraid to apply
the rule of law for fear of attacks often by their own colleagues. Still others have used
their positions to enforce their own politics by deserting and often desecrating the rule
of law. Under such circumstances we find the deterioration of Law and Ethics. The
evidence in this case is irrefutable. There is no getting around the fact that the United
States District Court for the Eastern District of California violated this Plaintiffs Civil
and Constitutional Rights.

Under no circumstances did the Court intend for the

evidence to be presented in this case. A review of the Court’s Docket certifies that this
18

REASONS FOR GRANTING THE PETITION CONT • • •
case was assigned, then unassigned in collaboration with THREE (3) Federal Justices.
Consequentially it is the Court’s own Docket which illuminates a hidden agenda from
the onset of this case.
Anytime a Government Institution, a State Administrative Court, a Federal
District Court, and a Court of Appeal distorts, or intentionally misinterprets the rule of
law, it is a viral, systemic attack on our Democracy. The effects of which creates an
economic burden on all segments of our society.
Because our Supreme Court Justices hold lifetime appointments, they cannot be
tarnished by, fame, money, or power. Truly you are the cement that hold our Democracy
together. It is with this understanding that I place my trust in you. Today I come before
you simply requesting that you provide this litigant in Pro Se an opportunity to present
the “evidence which proves that our Democracy is currently under attack. Such an
opportunity would preserve others who have been forced into poverty by the destruction
of our rule of law. It would inform the Court of Who, Where, What, Why and When our
Democracy was attacked and how it continues to be diminished daily. For all of the
reasons as described herein, Petitioner now calls for an exercise of the Supreme Court’s
authority to hear this case.

19

CONCLUSION

The petition for a writ of certiorari should be granted.
ectfully submi

id,

Date:
J

M. DOMINO, Ph.D.-Pro-Se

20

